           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




  PERFORMANCE INDICATOR AUDIT:
       CLAIMS PROCESSING


   October 2005    A-15-05-15114




 AUDIT REPORT
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   October 27, 2005                                          Refer To: ICN 35300-23-741

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Claims Processing (A-15-05-15114)



        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s (SSA) performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of one of the performance indicators PwC reviewed. For the performance
        indicators included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over the data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and are not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year 2004
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicators:

           •   Number of initial disability claims pending.
           •   Retirement and Survivors Insurance claims processed.
           •   Percent of Supplemental Security Income aged claims processed by the time the
               first payment is due or within 14 days of the effective filing date.
Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                               S
                                               Patrick P. O’Carroll, Jr.

Attachment
MEMORANDUM

Date:     October 12, 2005

To:       Inspector General

From:     PricewaterhouseCoopers, LLP

Subject: Performance Indicator Audit: Claims Processing (A-15-05-15114)

OBJECTIVE
The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

To enhance the practical use of performance information, the Office of Management
and Budget (OMB), in collaboration with other Federal agencies, developed the
Program Assessment Rating Tool (PART), comprised of assessment criteria on
program performance and management. The PART establishes a high, "good
government" standard of performance and will be used to rate programs in an open,
public fashion.4

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:
          1. Assess the effectiveness of internal controls and test critical controls over the
             data generation, calculation, and reporting processes for the specific
             performance indicator.


1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 http://www.whitehouse.gov/omb/budintegration/part_assessing2004.html. In this report, the PART
Measure results apply to the indicator “Percent of SSI Aged claims processed by the time the first
payment is due or within 14 days of the effective filing date.” This indicator was reported as a non-GPRA
PART performance measure in the Social Security Administration Performance and Accountability Report
Fiscal Year 2004, p. 120.



Performance Indicator Audit: Claims Processing (A-15-05-15114)                                          1
          2. Assess the overall reliability of the performance indicator’s computer
             processed data. Data are reliable when they are complete, accurate,
             consistent and are not subject to inappropriate alteration.5

          3. Test the accuracy of results presented and disclosed in the
             Fiscal Year (FY) 2004 Performance and Accountability Report (PAR).

          4. Assess if the performance indicator provides a meaningful measurement of
             the program it measures and the achievement of its stated objective.

BACKGROUND
We audited the following performance indicators as stated in the SSA FY 2004 PAR:

Performance Indicator                        FY 2004 Goal              FY 2004 Reported
                                                                            Results
Number of Initial Disability
                                                582,000                       624,658
Claims Pending
Retirement and Survivors
Insurance (RSI) Claims                         3,285,000                     3,399,471
Processed
Percent of Supplemental
Security Income (SSI) Aged
Claims Processed by the
                                                  75%                          84.1%
Time the First Payment is
Due or within 14 Days of
the Effective Filing Date

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI),
and the Supplemental Security Income (SSI) programs. The OASI program, authorized
by Title II of the Social Security Act, provides income for eligible workers and for eligible
members of their families and survivors.6 The DI program, also authorized by Title II of
the Social Security Act, provides income for eligible workers with qualifying disabilities
and for eligible members of their families before those workers reach retirement age.7
The SSI Program, authorized by Title XVI of the Social Security Act, was designed as a
needs-based program to provide or supplement the income of aged, blind, and/or
disabled individuals with limited income and resources.8


5
    GAO-03-273G Assessing Reliability of Computer Processed Data, October 2002, p. 3.
6
    The Social Security Act §§ 201-234, 42 U.S.C. §§ 401-434.
7
    Id.
8
    The Social Security Act §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.


Performance Indicator Audit: Claims Processing (A-15-05-15114)                              2
To determine eligibility for both Title II and Title XVI programs, the applicant must first
file a claim with SSA. This is typically accomplished through an appointment or walk-in
visit to one of SSA’s approximately 1,300 field offices (FO). Interviews are conducted
by field office personnel with the applicants via the telephone or in person to determine
the applicant’s non-medical eligibility. If the applicant is filing for benefits based on
disability, basic medical information concerning the disability, medical treatments, and
identification of treating sources is obtained.

Field office personnel input the applicant’s information into the Modernized Claims
System (MCS) for OASI and DI claims or the Modernized SSI Claims System (MSSICS)
for SSI claims. A relatively minor number of OASI and DI claims are input through the
SSA Claims Control System (SSACCS). The SSACCS is used to process claims that
cannot be processed through MCS. A favorable or unfavorable determination on the
receipt of benefits is made on the OASI and non-disability SSI claims. DI and SSI
disability claims are sent to the State Disability Determination Services (DDS) office for
the review of medical information and determination of the receipt of benefits.

RESULTS OF REVIEW
Our assessment of internal controls identified the following issues in at least one of the
three performance indicators reviewed. The internal controls and data reliability issues
included insufficient documentation to describe the performance indicator process:

   •   detailed data used to calculate the performance indicator was not maintained,

   •   an audit trail for transactions processed through the SSACCS application was not
       created or reviewed,

   •   SSA programmers had system access that would allow them to change the
       performance indicator data, and

   •   weaknesses were found in the configuration of the Title XVI Datawarehouse
       UNIX system and Oracle database that contains data used to calculate the
       performance indicator results.

We noted an issue regarding the accuracy of the PAR presentation and disclosure that
included inaccurate performance trend information reported in the PAR. We also found
that one performance indicator was not clearly linked to SSA’s strategic objectives.

Number of Initial Disability Claims Pending

Indicator Background

The performance indicator measures the number of DI and SSI disability initial claims
that have not been reviewed by the DDS. The DDS is responsible for determining the


Performance Indicator Audit: Claims Processing (A-15-05-15114)                                3
status of a claimant’s disability and ensuring that adequate evidence is available to
support the determination. Upon determining that an applicant has met the non-medical
eligibility requirements, SSA sends the DI and SSI initial claims file to the DDS. When a
claim determination is made by the DDS, the status is entered into the National
Disability Determination Services System (NDDSS) as completed. If the DDS has
not completed its review, the status of the claim is pending in the NDDSS. The data
within NDDSS is automatically transferred to the Disability Operational Datastore
(DIODS). The total number of pending initial disability claims are reported as of
September 24, 2004 on the State Agency Operations Report (SAOR). Refer to the
formula below.


                                               Total Workloads of Initial
Total Claims Pending for Title II and
                                          =    Closed Pending Claims as of
             Title XVI
                                               September 24, 2004


Findings

The DIODS data used to classify the initial disability claims as pending was not archived
and maintained in accordance with OMB Circular A-123, Management Accountability
and Control, Attachment II, Establishing Management Controls. SSA management
stated that the detailed data was not maintained due to limited data storage space and
lack of personnel resources. We were able to recalculate the indicator using summary
data from DIODS, but we could not verify the accuracy of the summary data.

An audit trail for transactions processed through the SSACCS is not produced or
reviewed. Therefore, transaction data may be altered or lost during input, resulting in
potentially incorrect or inconsistent data being accepted as valid for processing.

As a result of these issues, PwC was unable to validate the accuracy of the reported
indicator results and could not consider the data to be reliable.

We did not identify any significant exceptions related to the disclosure of the information
related to this indicator contained in the PAR, or to the meaningfulness of this indicator.

Retirement and Survivors Insurance Claims Processed

Indicator Background

The performance indicator measures the retirement (old-age), survivors, auxiliaries
(dependents of the retirees) and totalization (claims by eligible individuals who have
earned work credit overseas) claims processed. Processed RSI claims include claims
that have received a favorable or unfavorable determination on benefits.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                            4
The Title II Operational Datastore (TII ODS) calculates the total number of RSI claims
processed based on the fields for wage earners and dependents in the Retirement,
Survivors and Insurance Trust Fund and provides the result to the Integrated Work
Management System (IWMS). On a monthly basis, an SSA analyst queries IWMS for
the retirement, survivors, auxiliaries and totalization claims processed and sums these
categories to obtain the final indicator count.



                                                       Total RSI Claims processed for the
       Total RSI Claims Processed               =      period of October 1, 2003 to
                                                       September 24, 2004


Findings

Internal Controls and Data Reliability

SSA had not documented policies and procedures related to the formal process to
collect, review and make available the performance indicator data to Agency
management.9 Documentation describing the automated and manual controls involved
in the calculation and reporting of the performance indicator did not exist. OMB Circular
A-123, Management Accountability and Control, requires, “…documentation for
transactions, management controls, and other significant events must be clear and
readily available for examination.”10

We tested the IWMS datasets used to calculate the indicator and found that a total of
five SSA programmers had the "All" access designation within the Top Secret security
software to these datasets. This level of access allows users to create, delete and
modify any of the data (or datasets) contained within the datasets we reviewed. This
level of access prevents SSA from ensuring the integrity of this production data. By
allowing programmers to have the "All" access designation, SSA is not conforming to
the OMB Circular A-130 Appendix III, Security of Federal Automated Information
Resources, principles of "least privileged access" or segregation of duties.11 While we
were able to recalculate the indicator results, as a result of this issue, we could not
consider the data to be reliable.

An audit trail for transactions processed through the SSACCS is not produced or
reviewed. Therefore, transaction data may be altered or lost during input, resulting in
potentially incorrect or inconsistent data being accepted as valid for processing. As a
9
 After the completion of fieldwork, SSA provided PwC with documented policies and procedures for the
performance indicator.
10
     OMB Circular A -123, Appendix II, Establishing Management Controls, June 21, 1995.
11
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged access” for users with access to mainframe datasets.


Performance Indicator Audit: Claims Processing (A-15-05-15114)                                           5
result of the lack of an audit trail, we were unable to conclude on the accuracy of the
data reported in the PAR.

Accuracy of PAR Presentation and Disclosure

The performance trend in the PAR, “Agency performance this fiscal year is slightly
above FYs 2001 and 2003 but slightly below FY 2002,”12 was not accurately disclosed.
The reported FY 2004 results were actually slightly above the FY 2002 results.

Performance Indicator Meaningfulness

The linkage between the performance indicator and the SSA’s strategic objective
"Improve service with technology"13 was not apparent. The indicator measured the total
number of retirement and survivors insurance claims processed. While the noted
improvements are relevant to the objective, the enabling technology improvements,
e.g., the use of the Internet or investments in technology, were not identified in the
disclosure, nor were the claims processing improvements related to levels of effort or
cost.

Percent of Supplemental Security Income Aged Claims Processed by the Time
the First Payment is Due or within 14 Days of the Effective Filing Date

Indicator Background

This performance indicator was reported as a non-GPRA PART performance indicator
in the FY 2004 PAR. The performance indicator measures SSI aged claims that are
processed by the time the first payment is due or within 14 days of the effective filing
date and compares it to the total number of SSI aged claims processed. Refer to the
following formula.




12
     Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 97.
13
     Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 96.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                                       6
                                                        (SSI Aged Claims Processed by the
                                                        Time the First Payment is Due) +
     % of SSI Aged Claims Processed                     (SSI Aged Claims Processed within
     by the Time the First Payment is            =      14 Days)14
          Due or within 14 Days                         ____________________________

                                                        Total SSI Aged Claims Processed



The Title XVI Operational Datastore (TXVI ODS) receives the date of the favorable or
unfavorable determination of the SSI aged claims as well as the application date and
payment date. This data is collected from the TXVI ODS by the Title XVI
Datawarehouse and SSI Processing Time (SSIPT) system. The Title XVI
Datawarehouse calculates the indicator. The results are posted to the SSA Intranet on
an annual basis.

Findings

Internal Controls and Data Reliability

SSA had not documented policies and procedures related to the formal process to
collect, review and make available the performance indicator data to Agency
management.15 Documentation describing the automated and manual controls involved
in the calculation and reporting of the performance indicator did not exist. OMB Circular
A-123, Management Accountability and Control, requires, “…documentation for
transactions, management controls, and other significant events must be clear and
readily available for examination.”16

We tested the Title XVI ODS datasets used to calculate the indicator and found that a
total of three SSA programmers had the "All" access designation within the Top Secret
security software to these datasets. This level of access allows users to create, delete
and modify any of the data (or datasets) contained within the datasets we reviewed.
This level of access prevents SSA from ensuring the integrity of this production data.
By allowing programmers to have the "All" access designation, SSA is not conforming to

14
   This rate reflects the number of SSI Aged applications completed through the SSA operational system
(i.e., award or denial notices are triggered) before the first regular continuing payment is due or not more
than 14 days from the effective filing date, if later, divided by the total number of SSI Aged applications
processed. The first regular continuing payment date is based on the first day of the month that all
eligibility factors are met and payment is due. (Social Security Administration Performance and
Accountability Report Fiscal Year 2004, p. 120.)
15
  After the completion of fieldwork, SSA provided PwC with documented policies and procedures for the
performance indicator.
16
     OMB Circular A -123, Appendix II, Establishing Management Controls, June 21, 1995.


Performance Indicator Audit: Claims Processing (A-15-05-15114)                                                 7
OMB A-130 Appendix III, Security of Federal Automated Information Resources,
principles of "least privileged access" or segregation of duties.17

Our review of the Title XVI Datawarehouse UNIX system and Oracle database identified
seven security and compliance exceptions. This review was conducted against the
SSA developed UNIX Risk Model configuration standard, National Institute of Standards
and Technology (NIST) guidelines that include 5153 Section 3.2.2 and 800-18 Section
6.MA.2, and the Defense Information Security Agency (DISA) Security Technical
Implementation Guides (STIGS) Security Checklist version 4R4, Section 3.8.1. We
identified two exceptions to the requirements of the SSA UNIX Risk Model and three
exceptions to the existing government guidelines from NIST and the DISA UNIX
Security Checklist version 4R4. During our review of the Oracle database, we were
informed by SSA management that SSA has not developed a configuration standard
(risk model) for the Oracle database environment.18 We identified one exception to the
requirements of the SSA Security Handbook.

While we were able to recalculate the indicator results, as a result of these security
issues, the data used to calculate this performance indicator could not be considered
reliable.

CONCLUSION AND RECOMMENDATIONS
Specific to the performance indicator, “Number of Initial Disability Claims Pending,” we
recommend SSA:

     1. Maintain the detailed data used to calculate the performance indicator results
        that are reported in the PAR.

Specific to the performance indicator, “RSI Claims Processed,” we recommend SSA:

     2. Clearly articulate a direct linkage of the performance indicator to the Agency’s
        strategic goals and objectives in the PAR. If possible, include claims processed
        from internet or a description of technology investments that support the strategic
        objective. If this cannot be done, SSA should disclose the reason why this
        indicator is linked to the relevant strategic goal and objective.




17
   SSA is currently implementing the Standardized Security Profile Project to address the principle of
“least privileged access” for users with access to mainframe datasets.
18
  After the completion of fieldwork, SSA provided PwC with the configuration standard (risk model) for
the Oracle database environment.



Performance Indicator Audit: Claims Processing (A-15-05-15114)                                           8
Specific to the performance indicators, “Number of Initial Disability Claims Pending” and
“RSI Claims Processed,” we recommend SSA:

   3. Maintain an audit trail for SSACCS that captures the user ID, terminal, date and
      time the transaction was processed. Policies and procedures should be
      implemented requiring a review of the audit trail for inappropriate access or
      processing of transactions.

Specific to the performance indicator, “Percent of SSI Aged Claims Processed by the
Time the First Payment is Due or within 14 Days of the Effective Filing Date,” we
recommend SSA:

   4. Ensure that the Title XVI Datawarehouse UNIX system is configured to be in
      compliance with the SSA Risk Model and government guidelines from NIST and
      DISA. Ensure that the Title XVI Datawarehouse Oracle database is configured to
      be in compliance with the SSA Security Handbook. Ensure the risk model for the
      Oracle database is kept current with the SSA Security Handbook and
      Government guidelines.

Specific to the performance indicators, “RSI Claims Processed” and “Percent of SSI
Aged Claims Processed by the Time the First Payment is Due or within 14 Days of the
Effective Filing Date,” we recommend SSA:

   5. Maintain documentation that describes how the performance indicator goals were
      established, document the policies and procedures used to prepare and report
      the results of the performance indicators, and keep a complete audit trail.

   6. Ensure that the “least privileged access” principle is in place for SSA personnel
      that have the ability to directly modify, create or delete the datasets used to
      calculate the results of this indicator.

AGENCY COMMENTS
SSA agreed with three recommendations, partially agreed with one recommendation,
and disagreed with two recommendations. For recommendation 1, SSA disagreed and
stated that system capacity and limited resources would prevent them from full
implementation of this recommendation. For recommendation 3, SSA disagreed and
stated that SSACCS is only a secondary source for claims processing data and will be
phased out. Therefore, SSA does not believe it would be cost-effective to invest
resources in providing an audit trail for this system. For recommendation 4, SSA stated
that it agreed with the intent of the recommendation, but not its breadth. Specifically,
SSA stated that NIST and DISA guidelines are not always applicable, and therefore not
adopted. The full text of SSA’s comments can be found in Appendix D.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                            9
PWC RESPONSE
In response to comments regarding recommendation 1, one of the objectives of the
GPRA audit is to ensure the accuracy of results reported in the PAR for each of the
indicators under audit. We are willing to discuss any alternate methods the Agency is
considering to ensure that the indicator results are auditable. However, SSA is
responsible for meeting the requirements of OMB Circular A-123, Management
Accountability and Control, which states, "…documentation for transactions,
management controls, and other significant events must be clear and readily available
for examination."19 In addition, although PwC was able to recalculate the results using
summary data from DIODS, we could not consider the data to be reliable as the
Government Accountability Office defines reliability in Assessing the Reliability of
Computer-Processed Data (October 2002) as:

      •   Data are reliable when they are (1) complete (they contain all of the data
          elements and records needed for the engagement) and (2) accurate (they reflect
          the data entered at the source or, if available, in the source documents).

For recommendation 3, PwC has not been provided any documentation detailing the
timeframe for the "phase out" of SSACCS. As such, PwC continues to recommend that
SSA maintain an audit trail for SSACCS since this data is used for calculation of the
indicator results.

In response to comments on recommendation 4, we continue to recommend that SSA
ensure that the Title XVI Datawarehouse UNIX system is configured to be in compliance
with the SSA Risk Model and Government guidelines from NIST and DISA. Where SSA
believes NIST and DISA guidelines are not applicable to its system environment, SSA
should document the specific circumstances that preclude them from implementation.




19
     OMB Circular A-123, Appendix II, Establishing Management Controls, June 21, 1995.


Performance Indicator Audit: Claims Processing (A-15-05-15114)                           10
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Claims Processing (A-15-05-15114)
                                                                    Appendix A
Acronyms
 DDS                  Disability Determination Service
 DI                   Disability Insurance
 DIODS                Disability Operational Datastore
 DISA                 Defense Information Security Agency
 FO                   Field Office
 FY                   Fiscal Year
 GPRA                 Government Performance and Results Act
 IWMS                 Integrated Work Management System
 MCS                  Modernized Claims System
 MSSICS               Modernized Supplemental Security Income System
 NDDSS                National Disability Determination Service System
 NIST                 National Institute of Standards and Technology
 OASI                 Old-Age and Survivors Insurance
 OMB                  Office of Management and Budget
 PAR                  Performance and Accountability Report
 PART                 Program Assessment Rating Tool
 RSI                  Retirement and Survivors Insurance
 SAOR                 State Agency Operations Report
 SSA                  Social Security Administration
 SSACCS               Social Security Administration Claims Control System
 SSI                  Supplemental Security Income
 SSIPT                Social Security Income Processing Time
 STIGS                Security Technical Implementation Guides
 TII ODS              Title II Operational Datastore
 TXVI ODS             Title XVI Operational Datastore
 U.S.C.               United States Code




Performance Indicator Audit: Claims Processing (A-15-05-15114)
                                                                  Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was
completed through research and inquiry of SSA management. We also
requested SSA to provide various documents regarding the specific programs
being measured as well as the specific measurement used to assess the
effectiveness and efficiency of the related program.

Through inquiry, observation, and other substantive testing, including testing of
source documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the
       Inspector General and other reports related to SSA’s GPRA performance
       and related information systems.
   •   Met with the appropriate SSA personnel to confirm our understanding of
       the performance indicators.
   •   Flowcharted the processes. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes
       (e.g., spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls
       within and surrounding each of the critical applications to determine
       whether the tested controls were adequate to provide and maintain
       reliable data to be used when measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element
       or source document.
   •   Recalculated the metric or algorithm of key performance indicators to
       ensure mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized
       data, we assessed the completeness and accuracy of that data to
       determine the data's reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by
Agency personnel, of the alignment of the Agency’s mission, goals, objectives,
processes, and related performance indicators. We analyzed how these
processes interacted with related processes within SSA and the existing
measurement systems. Our understanding of the Agency’s mission, goals,
objectives, and processes were used to determine if the performance indicators
appear to be valid and appropriate given our understanding of SSA’s mission,
goals, objectives and processes.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                     B-1
We followed all performance audit standards in accordance with generally
accepted government auditing standards. In addition to the steps above, we
specifically performed the following to test the indicators included in this report:

NUMBER OF INITIAL DISABILITY CLAIMS PENDING

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
          9 Competed application control reviews over Disability Operational
              Datastore (DIODS).
   •   Determined the adequacy of the programming logic used by SSA to
       calculate the initial disability claims pending.

RETIREMENT AND SURVIVORS INSURANCE (RSI) PROCESSED

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
          9 Completed application control review over Title II Operational
              Datastore (TII ODS) and Integrated Work Management System
              (IWMS).
   •   Determined the adequacy of the programming logic used by SSA to
       calculate the RSI processed.
   •   Recalculated the RSI processed for the Fiscal Year (FY) 2004 and
       compared it to the RSI processed for the year.

PERCENT OF SUPPLEMENTAL SECURITY INCOME (SSI) AGED
CLAIMS PROCESSED BY THE TIME THE FIRST PAYMENT IS
DUE OR WITHIN 14 DAYS OF THE EFFECTIVE FILING DATE

   •   Audited the design and effectiveness of the SSA internal controls and the
       accuracy and completeness of the data related to the following areas:
          9 Completed application control reviews over the Title XVI
              Operational Datastore (TXVI ODS) and Title XVI Datawarehouse.
          9 Completed reviews for the Title XVI ODS and Title XVI
              Datawarehouse UNIX system and ORACLE database.
   •   Determined the adequacy of the programming logic used by SSA to
       calculate the indicator.
   •   Recalculated the indicator for the FY 2004 and compared it to the number
       reported in the Performance Accountability Report.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                     B-2
                                                                                                                                                                                 Appendix C

Number of Initial Disability Claims Pending
2004 Process Flowchart
                         Claimant contacts
                                                                                              FO interviews
                           SSA via Field                                                                                  Is claimant
                                                                                               claimant via
                          Office (FO) visit,            Can the FO                                                    potentially eligible                 Does claimant
                                                                                             teleclaim or in-                                 No                                 No         STOP
      START              mail, or phone call        personnel interview        Yes                                     for Title II and/or                 insist on filing?
                                                                                          office appointment,
                           to FO or Tele-           the claimant today?                                                    Title XVI?
                                                                                          first verifying non-
                          Service Center
                                                                                            medical issues.
                               (TSC).


                                                            No

                                                                                                                                                    Yes
                                                     Set up a teleclaim
                                                        or in-office
                                                       appointment.




                                                                                        Yes

                                                                                                                                If possible, make
  Complete Disability Insurance (DI) application
                                                                                                                                  and enter non-
 forms using Modernized Claims System (MCS)                                                          Determine                                                       Is this a
                                                                  Review non-                                                   medical decision
  or Modernized Supplemental Security Income                                                       effective filing                                                 technical         Yes   Claim is denied.
                                                                 medical issues.                                                   into MCS or
    Claims Systems (MSSICS) or SSA Claims                                                              date.                                                         denial?
                                                                                                                                    MSSICS or
          Control Systems (SSACCS).
                                                                                                                                    SSACCS.

                                                                                   No


                               National Disability
                                                                                                            DIODS counts the number                          Staff reviews
                         Determination Services System           NDDSS interfaces with                                                                                                      Year-end SAOR
 Create medical                                                                                               of pending claims on a                       weekly SAOR to
                                   (NDDSS)                        Disability Operational                                                                                                      number is
 folder with form                                                                                           weekly basis per the State                    identify anomalies
                          receives claimant information          Datastore (DIODS) to                                                                                                       recorded in the
    SSA-831.                                                                                                Agency Operations Report                         and corrects
                            from MCS or MSSICS or             provide pending claims data.                                                                                                       PAR.
                                                                                                                     (SAOR).                                    errors.
                                   SSACCS.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                                                                                                                                           C-1
2004 Process Flowchart Narrative
Number of Initial Disability Claims Pending
   •   Claimant contacts the SSA via a FO in-person visit, mail, or phone call to the FO
       or TSC.
   •   If the FO or TSC can interview the claimant, the FO or TSC will verify non-
       medical factors.
   •   If the FO or TSC is not available to interview the claimant, the FO or TSC will set
       up an in-office or telephone interview.
   •   During the interview, the FO personnel’s review determines if the claimant is
       eligible for Title II and/or Title XVI benefits. If the claimant does not qualify for
       Title II and/or Title XVI benefits, the claimant can continue or stop the filing of the
       application.
   •   Claimants that are eligible for Title II or Title XVI benefits complete the
       application form. The FO personnel enter the Title II application into MCS or
       SSACCS. The FO personnel enter the Title XVI application into MSSICS.
   •   The FO personnel review non-medical issues and determine the claimant’s
       effective filing date.
   •   If the determination is a technical denial, the FO personnel will enter the decision.
   •   If the determination is not a technical denial, a medical folder is created for the
       claimant and sent to the State Disability Determination Services (DDS) for the
       review of medical factors and determination of receipt of benefits.
   •   NDDSS receives the claimant’s data from MCS, SSACCS and MSSICS.
   •   NDDSS provides the total number of pending disability claims to the DIODS.
   •   DIODS produces the pending disability claims count on a weekly basis on the
       SAOR.
   •   The DDS staff analyzes the SAOR report to identify anomalies and corrects
       errors, if applicable.
   •   The year-end SAOR report produces the indicator results on the PAR.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                             C-2
RSI Claims Processed
2004 Process Flowchart
                                                                                     FO interview s
                                                    C an FO
                      C laim ant contacts                                             claim ant via
                                                   personnel                                                  Is claim ant
                      SSA via FO visit,                                             teleclaim or in-                                              D oes claim ant
      STAR T                                     interview the        Yes                                  potentially eligible         No                            No           STO P
                      m ail, or phone call                                      office appointm ent,                                              insist on filing?
                                                    claim ant                                                 for Title II ?
                         to FO or TSC .                                          first verifying non-
                                                     today?
                                                                                   m edical issues.


                                                      No                                                                          Yes



                                               Set up a teleclaim
                                                   or in-office
                                                 appointm ent.



                                                                     Yes


                                                           Verify claim ant                     Verify claim ant earnings                 M C S Front End
     C om plete
                             D eterm ine                      identity by                        by accessing Earnings                     perform s edit             M C S interfaces to the
 application form s
                           effective filing                   accessing                            R etirem ent C laim s                checks & provides              W ork M anagem ent
   using M CS or
                                date.                      N U M ID EN T (via                     System (ER M S) (via                   initial entitlem ent            System (W M S).
 paper application.
                                                                M C S).                                   M CS).                              decision.




 Paper application
  interfaces to TII
      O D S (via
     SSAC C S).



                                                                                                                                            R SI claim s
                                                           Staff retrieves                            Staff reviews                     processed num ber
W M S interfaces to      IW M S receives                reports w ith claim s                         G ETW O R K                         is recorded on
     TII O D S.         data from TII O D S.             inform ation from                             reports for                             PAR
                                                            G ETW O R K.                            inconsistencies.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                                                                                                                                  C-3
2004 Process Flowchart Narrative
Retirement and Survivors Insurance Claims Processed
   •   Claimant contacts the SSA via a FO in-person visit, mail, or phone call to the FO
       or TSC.
   •   If the FO or TSC can interview the claimant, the FO or TSC will verify non-
       medical factors.
   •   If the FO or TSC is not available to interview the claimant, the FO or TSC will set
       up an in-office or telephone interview.
   •   During the interview, the FO personnel’s review determines if the claimant is
       eligible for Title II benefits. If the claimant does not qualify for Title II benefits, the
       claimant can continue or stop the filing of the application.
   •   Claimants that are eligible for Title II benefits complete the application form. The
       FO personnel enter the Title II application into MCS or SSACCS.
   •   The FO personnel’s review determines the claimant’s effective filing date, verifies
       the claimant’s identify via the Numident and verifies the claimant’s earnings via
       the Earnings Retirement Claims System.
   •   MCS performs edit checks and provides an initial entitlement decision.
   •   MCS interfaces with the WMS to provide the RSI processed claims data.
   •   SSACCS and WMD interface with the TII ODS to provide the RSI processed
       claims data.
   •   IWMS received data from the TII ODS. The SSA staff retrieves the RSI
       processed claims data from the GETWORK module of IWMS.
   •   The SSA staff reviews the GETWORK report for errors and inconsistencies.
   •   The final indicator number is reported in the PAR.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                                C-4
Percent of SSI Aged Claims Processed by the Time the First
Payment is Due or within 14 Days of the Effective Filing Date
2004 Process Flowchart
                                                                                       FO interviews
                                                        Can FO
                       Claim ant contacts                                               claim ant via           Is claim ant
                                                       personnel                                                                              Does claimant
                       SSA via FO visit,                                              teleclaim or in-          potentially                                      No   STOP
     START                                           interview the       Yes                                                            No   insist on filing?
                       m ail, or phone call                                       office appointment,        eligible for Title
                                                        claimant
                         to FO or TSC.                                             first verifying non-            XVI?
                                                         today?
                                                                                     medical issues.

                                                          No                                                                      Yes



                                                  Set up a teleclaim
                                                      or in-office
                                                    appointm ent.


                                                                       Yes


                                                               Verify claim ant
       Com plete                 Determ ine                      identity by
                                                                                                  CR adjudicates                   SSI Exception
   application forms           effective filing                  accessing
                                                                                                   application.                   Controls System.
    using MSSICS.                  date.                       NUM IDENT via
                                                                  M SSICS.




                             Data W arehouse/SSI                                                           Num ber pulled
    Information on                                                  Staff retrieves report
                                Processing Time                                                            from Intranet is
         claim s                                                   from the M anagement
                             (SSIPT) are updated                                                           recorded in the
     processed is                                                 Information Central web
                             with sum mary data on                                                              PAR.
     stored in the                                                 application on the SSA
                                SSI Aged claims
    Title XVI ODS.                                                         Intranet.
                                   processed.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                                                                                                               C-5
2004 Process Flowchart Narrative
Percent of SSI Aged Claims Processed by the Time the First Payment is Due or
within14 Days of the Effective Filing Date

   •   Claimant contacts the SSA via a FO in-person visit, mail, or phone call to the FO
       or TSC.
   •   If the FO or TSC can interview the claimant, the FO or TSC will verify non-
       medical factors.
   •   If the FO or TSC is not available to interview the claimant, the FO or TSC will set
       up an in-office or telephone interview.
   •   During the interview, the Field Office personnel determine if the claimant is
       eligible for Title XVI benefits. If the claimant does not qualify for Title XVI
       benefits, the claimant can continue or stop the filing of the application.
   •   Claimants that are eligible for Title XVI benefits complete the application form.
       The field office personnel enter the Title XVI application data into MSSICS.
   •   The field office personnel’s review determines the claimant’s effective filing date
       and verifies the claimant’s identify via the Numident.
   •   The field office personnel adjudicate the application.
   •   The claims data is sent to the SSI Exception Controls Systems.
   •   The Title XVI ODS receives data from the SSI Exception Controls System.
   •   The Title XVI Datawarehouse/ SSIPT are updated with the summary data of the
       processing time of SSI Aged claims.
   •   SSA retrieves the indicator results from the SSA Intranet and reports the results
       on the PAR.




Performance Indicator Audit: Claims Processing (A-15-05-15114)                             C-6
                                                                      Appendix D

   Agency Comments




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)
                                         SOCIAL SECURITY
                                                                                 0509-0002240
MEMORANDUM                                                                       34314-24-1350

Date:      October 11, 2005                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Performance Indicator Audit: Claims
           Processing" (A-15-05-15114) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE INDICATOR AUDIT: CLAIMS PROCESSING"
(A-15-05-15114)

Thank you for the opportunity to review and comment on the draft report. We acknowledge the
findings and intent of the recommendations. We recognize that the objective of the audit was to
review the Fiscal Year (FY) 2004 Performance and Accountability Report (PAR). Nonetheless,
we believe the report should have noted where SSA has recognized shortcomings and has
undertaken corrective actions.


Our specific responses to the report's recommendations are provided below.


Recommendation 1

Specific to the performance indicator, "Number of Initial Disability Claims Pending:" maintain
the detailed data used to calculate the performance indicator results that are reported in the PAR.


Comment


We disagree. Although the report acknowledges system capacity is a compelling factor for not
maintaining data for tracing data integrity, the diversion of already limited resources to support
such activity is equally compelling. Satisfying this recommendation would require SSA to
preserve and maintain, among other things, data transactions, source code, multiple versions of
software and the operating system in use during the potential audit review period. Staff would
then need to be available to reconstruct all this to support an audit. The magnitude of such an
effort would seriously impede work to implement new information technology supported
processes that support SSA programs and their clients. We have recommended to OIG and PwC
representatives that they take advantage of real-time auditing, and they agreed to explore such an
option for subsequent fiscal year audits.


Moreover, the data from the Disability Insurance Operational Data Store (DIODS) is used to
determine the number of disability claims pending. Office of Management and Budget's (OMB)
Circular A-11, section 230f states "Performance data need not be perfect to be reliable,
particularly if the cost and effort to secure the best performance data will exceed the value of any
data so obtained". Therefore, since PwC was able to recalculate the results using summary data


Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                            D-2
from DIODS, we suggest PwC revise their statement in Findings that they could not consider the
data reliable.


Recommendation 2

Specific to the performance indicator, "RSI Claims Processed:" clearly articulate a direct linkage
of the performance indicator to the Agency's strategic goals and objectives. If possible, include
claims processed from internet or a description of technology investments that support the
strategic objective. If this cannot be done, SSA should disclose the reason why this indicator is
linked to the relevant strategic goal and objective.


Comment


We agree. We have enhanced language in the FY 2005 PAR to make this linkage more
apparent.


Recommendation 3

Specific to the performance indicators, "Number of Initial Disability Claims Pending" and "RSI
Claims Processed:" maintain an audit trail for SSA Claims Control System (SSACCS) that
captures the user ID, terminal, date and time the transaction was processed. Policies and
procedures should be implemented requiring a review of the audit trail for inappropriate access
or processing of transactions.


Comment


We disagree. SSACCS is only a secondary source for claims processing data. All cases have
some Modernized Claims Systems (MCS) involvement (and the attendant audit trail), but in
cases (approximately 6%) where MCS does not provide all of the data necessary to calculate a
pending or processed count, SSACCS data are used.


Because SSACCS will be phased out, it is not cost-effective to invest resources for enhancing
this system to provide the audit trail PwC recommends. Again, we refer to OMB's Circular A-11
guidance in section 230.f, mentioned above.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                          D-3
Recommendation 4

Specific to the performance indicator, "Percent of SSI Aged Claims Processed by the Time the
First Payment is Due or within 14 Days of the Effective Filing Date:" ensure that the Title XVI
Datawarehouse UNIX system is configured to be in compliance with the SSA Risk Model and
government guidelines from the National Institute of Standards and Technology (NIST) and the
Defense Information Security Agency (DISA). Ensure that the Title XVI Datawarehouse Oracle
database is configured to be in compliance with the SSA Security Handbook. Create a risk
model for the Oracle database that is in compliance with the SSA Security Handbook and
Government guidelines.


Comment


We agree with the intent of the recommendation, but not its breadth.


Concerning PwC’s finding that the T16 Datawarehouse was non-compliant with settings in the
risk model, we concur and have already taken corrective action.


Although SSA reviews NIST and DISA guidelines when updating each operating system Risk
Model, full adoption of the guidelines would adversely affect the Agency’s ability to conduct its
core business under the current Information Technology (IT) environment. Moreover, the
recommendations made are frequently not applicable to SSA systems environment because we
do not utilize the specific components of the operating system discussed in these documents, or
because SSA is using that component in a manner different than that envisioned by NIST or
DISA.


Therefore, it would be inappropriate for the Agency to state we are in full compliance with these
guidelines for the reasons stated above. However, the Agency has implemented the guidelines
where they are applicable to our processing environment. We believe our configuration
management program affords the Agency the best possible protections while also supporting our
core business processes.


Recommendation 5

Specific to the performance indicators, "RSI Claims Processed" and "Percent of SSI Aged
Claims Processed by the Time the First Payment is Due or within 14 Days of the Effective Filing

Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                          D-4
Date:" maintain documentation that describes how the performance indicator goals were
established, document the policies and procedures used to prepare and report the results of the
performance indicators, and keep a complete audit trail.


Comment


We agree. Policies and procedures have been developed and were provided to the auditors. This
should be acknowledged in their final report.


Recommendation 6

Ensure the "least privileged access" principle is in place for SSA personnel that have the ability
to directly modify, create or delete the datasets used to calculate the results of this indicator.


Comment


We agree. SSA is in the midst of reevaluating access rights for all its programmatic and
administrative systems. Much progress has been made, and we are pleased to report that the
systems SSA identified as the most tempting for high-risk activity have been successfully
secured. We continue to address the remaining systems. Both the Integrated Work Management
System and T16 Operational Datastore, specifically noted in this report, have been recently
evaluated and action has been taken to restrict access and monitor programmers’ interactions
with these systems.




Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)                            D-5
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
